GR-70-98-007
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
Newark, New Jersey Police Department
GR-70-98-007
 
June 5, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS), to the Newark, New Jersey Police Department. Newark was awarded a total of
$21,051,258 in COPS grants to hire 249 new sworn police officers and redeploy 77.5
full-time-equivalent (FTE) sworn police officers from administrative duties to community
policing.
Newark violated the following grant conditions.


The number of budgeted city-funded sworn-officer positions decreased from 1,411 in FY
    1995 (the baseline year for UHP grants) to 1,215 in FY 1997, a decrease of 196. The actual
    number of sworn uniformed officers on Newark's police force also decreased by 142 from FY
    1996 to FY 1997. The decline in the number of both budgeted and actual city-funded
    sworn-officer positions demonstrates that Newark improperly supplanted local funds with
    COPS grant funds. Consequently, we question about $1.2 million in grant reimbursements and
    recommend that about $2.5 million be put to better use.


Requests for Federal Share were not accurate because they included about $1.3 million in
    unallowable salaries and fringe benefits charged to Newark's 1995 Making Officer
    Redeployment Effective (MORE 95)1, Accelerated Hiring,
    Education and Deployment (AHEAD), and Universal Hiring Program (UHP) grants which were not
    expended in accordance with grant conditions. As a result, we question about $532,000 of
    the reimbursements Newark has received and recommend that about $188,000 be put to a
    better use.


Newark did not have a formal plan to retain grant-funded positions after the expiration
    of its COPS grants. The COPS office has told Newark that it will not fund additional
    officers until Newark provides it with assurances that the city has begun to plan for the
    termination of federal funding.


Newark did not deploy the required number of officers to community policing. As of the
    date of our audit, of the 326.5 FTE for which Newark had received grants, it had hired 279
    FTE in accordance with grant conditions. As a result, it was required to increase its
    deployment to community policing by 279. However, Newark increased the number of officers
    deployed to its community policing unit (Quality of Life Task Force) by 191, 88 short of
    the 279 required. As a result, we question about $37,000 in grant reimbursements received
    by Newark under its AHEAD grant.2


Newark did not seek COPS' permission to make a major program change to its community
    policing program.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.

 1 Jurisdictions were allowed to apply for
and receive MORE grants in both 1995 and 1996. In this report, MORE grants funded with FY
1995 funds are referred to as MORE 95 and MORE grants funded with FY 1996 funds are
referred to as MORE 96.
 2 Newark supplanted
local funds with COPS funds during the same period in which it had not deployed enough
officers to community policing. As a result, the questioned costs for the community
policing shortfall have been prorated to eliminate our questioning the same reimbursement
twice. Our calculation also accounts for those officers and civilians whose expenses we
questioned because Newark hired them prior to their respective grant start dates. If
Newark had not supplanted or used grant funds for personnel hired before the grant start
dates, we would have questioned about $1,000,000 in reimbursements as the result of the
community policing shortfall.
#####